HHS/OIG-AUDIT--Administrative Costs Incurred Under Parts A and B of the Medicare
Program-Arkansas Blue Cross Blue Shield (A-06-96-00008)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Administrative Costs Incurred Under Parts A and B of the Medicare
Program - Arkansas Blue Cross Blue Shield," (A-06-96-00008)
September 18, 1996
Complete Text of Report is available in PDF format
(3.1 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report presents the results of the certified public accounting firm of Doshi & Associates'
audit of costs claimed on Arkansas Blue Cross Blue Shield's (ABCBS) final administrative
cost proposals (FACP). The audit covered Medicare Parts A and B of the Arkansas
program and Part B of the Louisiana program for fiscal years 1989 through 1994.
We have performed sufficient work to satisfy ourselves that the attached audit
report can be relied upon and used by the Health Care Financing Administration
in meeting its program oversight responsibilities.
We are recommending a financial adjustment of $1,442,193 because ABCBS:
understated the complimentary credits from its private insurance business due
Medicare by $834,586. These credits arise from medical information contained
in the Medicare claim and used in processing a claim from the private line of
business;
did not credit Medicare with $118,373 for its share of interest earned on an
Health Maintenance Organization reserve balance for employee health insurance;
charged Medicare $67,648 for funding a general contingency reserve for a Preferred
Provider Organization as part of its employee health insurance plan. Such contingencies
are unallowable per the Federal Acquisition Regulations;
allocated $228,396 in excess executive compensation costs to Medicare during
fiscal years 1991 through 1994. ABCBS increased its executive compensation an
average of 34 percent for the period as compared to the Bureau of Labor Statistics'
average increase of 14 percent for the same period;
allocated other miscellaneous unallowable costs totaling $58,762 to Medicare.
These included bank account fees - $27,469, annual reports - $23,885, legal fees
- $3,690, State licenses for insurance sales agents - $1,844, telephone line
charges - $1,344, and social activities - $530.
In order to avoid exceeding approved budgets, ABCBS did not claim $5,121,476 in
incurred Medicare costs for fiscal years 1993 and 1994. We offset a portion of
the unclaimed costs against questioned costs. We made the offset because ABCBS
had originally claimed the detailed costs on its FACP'S, and then eliminated them
because they exceeded budget ceilings. As a result, the unclaimed costs were identifiable
and auditable. We did not, however, offset the remainder of unclaimed costs against
questioned costs because they were not specifically identified.
In its response, ABCBS agreed with $1,213,797 of the questioned costs, and disagreed
with the findings on employee health insurance and executive compensation costs.